           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Analysis of Loss of Control Over                                             Date:    August 28, 2007
           Sensitive Personally Identifiable Information and
           Follow-up Actions to Strengthen its Protection


  From:                                                                                      Reply to
           Theodore P. Alves                                                                 Attn. of:   J-2
           Associate Deputy Inspector General
    To:    Inspector General

           This memorandum provides the results of an analysis of two incidents involving
           the loss of control over Sensitive Personally Identifiable Information (SPII): 1 the
           July 27, 2006, theft of an Office of Inspector General (OIG) laptop from a special
           agent’s vehicle in Doral, Florida, and the April 24, 2006, theft of an OIG laptop
           from a hotel conference room in Orlando, Florida.

           As a result of these two laptop thefts, the OIG lost control over a large amount of
           SPII. Of particular concern was information on 138,000 individuals that had been
           collected in connection with Florida-based OIG investigations. Normally, these
           data would have been encrypted. However, due to a needed system upgrade, the
           data were not encrypted at the time of these thefts.

           While it does not appear that these two incidents resulted in any identity theft or
           other damage to the persons who had SPII on the laptops, we felt it was critical to
           understand the factors and circumstances that led to loss of control over SPII,
           identify what needed to be done to strengthen the protection of SPII, and ensure
           that these steps were carried out.

           This memorandum (1) sets forth the circumstances surrounding the loss of SPII as
           a consequence of the two laptop thefts in Florida; (2) describes the OIG response,

           1
               SPII consists of the combination of names and other personal information (e.g., addresses, dates of birth, and social
               security numbers) that can be exploited to falsely obtain credit using another person’s identity. Personally
               identifiable information (PII) and SPII are often used interchangeably. Technically, a telephone company’s white
               pages contain PII because the listings identify specific persons and associate their names with a phone number. It is
               the linking of an individual’s name with information that is not readily publicly available (such as a social security
               number) and that can be exploited to falsely obtain credit that this report refers to as SPII.
                                                                                                                 2


including efforts to protect the affected individuals; (3) assesses the risk of identity
theft created by our loss of control over the SPII; (4) identifies the factors that
contributed to losing control of the SPII; and (5) describes and evaluates OIG
efforts to reduce the likelihood of future loss or improper disclosure of SPII.


SUMMARY OF RESULTS
We found that our efforts to protect the SPII entrusted to us were insufficient. We
identified three vulnerabilities that contributed to the breaches and took steps to
address each of the vulnerabilities to prevent any future loss of SPII. We are also
confident that, based on the results of our investigation into the thefts and an
independent analysis of credit transactions pertaining to the affected individuals,
the SPII contained on the laptops has not been and is not likely to be exploited to
perpetrate identity theft.

When the two laptops were stolen, they contained databases with large amounts of
SPII. Of particular concern was information on 138,000 individuals that had been
collected in connection with Florida-based OIG investigations. This information
was collected in connection with investigations related to airman certificates
issued in Florida, commercial driver’s licenses issued in Miami, and commercial
and individual driver’s licenses issued in the Tampa area. Because the
information on these individuals was stored in Microsoft Access and Microsoft
Excel files, which are easily accessible file types, these individuals faced an
increased risk of identity theft if the laptop thieves tried to exploit the data
contained on these laptops.

Although the laptops were protected by password authentication that met National
Institute of Standards and Technology (NIST) requirements, the data files, which
had been encrypted, were decrypted 2 at the time of the theft. This decryption took
place to allow a needed upgrade of the OIG computer infrastructure. Because the
data files were decrypted, the SPII on the laptops was more vulnerable to improper
disclosure. Although defeating the password is fairly difficult, there are readily
available programs that allow a user to reset a Windows password; if the password
were reset, the user would have access to all unencrypted data. 3

We believe that both laptops were probably stolen for the value of the computers,
rather than for the data they contained. As noted in the guidance developed by the

2
    There was no encryption requirement at the time of the thefts. Following the May 2006 theft of an external hard
    drive containing personal information on 26 million veterans from the home of a Veterans Affairs employee, the
    Office of Management and Budget mandated that all agency data stored on mobile computer/devices be encrypted
    by August 7, 2006, unless the data were determined, in writing, to be non-sensitive.
3
    Using such a program would not give the user access to encrypted data—encrypted data would be rendered
    unreadable by resetting the password in this manner.
                                                                                                                            3


President’s Identity Theft Task Force 4 (ITTF guidance): “The risk of identity theft
is lower when the control over the data is lost as a result of the theft of a computer
that is inadvertently left unprotected in a public location.” This is consistent with
the results of our investigation into the Doral theft. As part of this investigation we
placed a decoy laptop in a vehicle in the same parking lot where the Doral laptop
was stolen. We observed an individual 5 break into that vehicle and were able to
arrest that individual and break up a computer theft ring. Interviews of the
participants revealed that they stole laptop computers, reloaded new operating
systems and then sold the computers on the used market without attempting to
access the data.

In response to the Doral theft, we took a number of actions to inform the affected
individuals. We quickly reviewed backups of the files to identify persons whose
SPII was stored on the laptop. We then sent letters to those individuals for whom
we could find addresses providing information regarding the theft and steps they
could take to protect themselves. We also posted this information on our website
and encouraged persons believing that they might be victims of identity theft to
contact our hotline, which is staffed 24 hours a day, 7 days a week.

Further, we took steps to protect the individuals from harm in the event that the
data were exploited. To do this, we hired ID Analytics, a firm that specializes in
helping organizations assess risks and minimize harm following a data breach. ID
Analytics is monitoring credit activity for the individuals whose SPII was lost to
determine whether identity theft is occurring as a result of the loss of control over
these databases. 6 ID Analytics certified that as of August 21, 2007, the date of its
most recent analysis, 7 no organized misuse of the databases stored on the stolen
computers has occurred.

In analyzing how this loss of control over SPII occurred, we identified three
contributing factors: (1) measures taken to protect the physical security of the
laptops were insufficient; (2) the data on the laptops were decrypted (to preserve
the data) during an upgrade to the OIG’s information technology (IT) system; and
(3) SPII databases were stored on laptop computers, which are inherently less


4
    A September 19, 2006, memorandum setting forth this guidance was circulated by the Office of Management and
    Budget to the heads of all Federal departments and agencies. This guidance is posted on the internet at:
    http://www.whitehouse.gov/omb/memoranda/fy2006/task_force_theft_memo.pdf.
5
    That individual was convicted of theft of Government property and deported.
6
    The ITTF guidance notes that because “approximately 3.6 percent of the adult population reports itself annually as
    the victim of some form of identity theft . . . for any large breach, it is statistically predictable that a certain number
    of the potential victim class will be victims of identity theft through events other than the data security breach in
    question.” ID Analytics looks for “organized misuse” to distinguish between identity theft related to the breach and
    identity theft that is the “normal by-product of the routine incidence of identity theft.”
7
    Thus far, ID Analytics has provided us with 4 reports. The most recent report was issued on August 21, 2007. ID
    Analytics will continue to monitor these databases through August 2008.
                                                                                                                     4


secure than computers that operate in a centralized environment. Had any one of
these factors not existed, the loss of control would not have occurred.

In response to these incidents, we have taken a number of actions to reduce the
likelihood of any future loss of control over SPII. For example, we have:

    • Improved laptop physical security by issuing cable locks to all OIG laptop
      users, issuing policy for properly securing unattended laptops, and
      implementing guidance developed by the Department of Transportation (DOT)
      regarding the security of portable computers.

    • Enhanced the protection of laptop data by encrypting laptop hard drives and
      employing a two-factor authentication system, which requires the user to set a
      password and plug in a small token device to access the laptop.

    • Stored sensitive personal information in a more secure fashion by removing all
      such databases from laptops and either moving them to a more secure OIG
      network server or deleting them if no longer needed. We will also periodically
      review sensitive data and remove any that is no longer needed.

    • Raised employee sensitivity of the need to protect such information through
      security training, management web casts, instructional videos, and other
      guidance.


CIRCUMSTANCES SURROUNDING THE THEFT OF LAPTOPS
CONTAINING SPII

Laptop Stolen in Doral, Florida
On Thursday, July 27, 2006, an OIG laptop computer was stolen from an OIG
vehicle near Miami, Florida. The OIG special agent to whom the laptop was
assigned was transporting an agent from another Federal law enforcement agency
and a Federal prosecutor to see various locations related to an open investigation,
and they stopped for lunch at a restaurant in Doral. The special agent left his
laptop in an unzipped case, atop a stack of other equipment in the cargo bay of a
locked OIG Chevrolet Blazer. 8

While the agents and prosecutor were in the restaurant, a thief used a tool to punch
in the keyhole on the front passenger door of the vehicle to gain entry and stole the
OIG laptop, leaving the carrying case behind. No other items were stolen. Upon

8
    Although the vehicle had tinted windows, a re-creation of the scene determined that the laptop could have been seen
     from outside the vehicle.
                                                                                                                         5


returning to the vehicle, the agent did not notice that the passenger side lock had
been punched out.

Later that day, the agent notified the Assistant Special Agent in Charge (ASAC) of
the Miami office that his laptop was missing from its carrying case. He said that
he was concerned because he was certain he had the laptop with him when he left
the offices of the Florida Department of Law Enforcement (FDLE) that morning.
When the ASAC asked him if the vehicle could have been broken into, he
informed her that nothing else was missing and he saw no indication of a break-in,
such as broken glass. The ASAC advised that she would notify the Special Agent
in Charge (SAC) but suggested that the agent recheck the car and retrace his steps
at FDLE. The following day, the agent unsuccessfully searched FDLE; over the
weekend, he also searched his residence and found nothing.

Because the laptop was not located on Friday (July 28) or over the weekend, on
Monday morning (July 31), the Miami SAC sent an e-mail to various
Headquarters personnel, including the OIG System Security Officer (OIG SSO),
advising them that a laptop had been stolen. The SAC also instructed the OIG
agent to file the required police report with the Miami-Dade Police Department. 9
Because the agent was at a loss to explain how the thief gained entry, the Miami
SAC and the agent examined the vehicle on August 1 and discovered the hole in
the passenger door lock.


Determination That Sensitive Personally Identifiable Information Was at
Risk
Upon receiving the Miami SAC’s July 31, 2006, e-mail reporting the theft of the
Doral laptop, the OIG SSO, aware of the requirement to promptly report incidents
involving loss of control over PII, asked whether the stolen laptop contained PII.
Later that morning, the Miami SAC confirmed that the laptop contained some PII,
in the form of social security numbers (SSNs) and other personal information
obtained from interviewees during criminal investigations. 10 The OIG SSO then
immediately notified the Department’s Transportation Computer Incident
Response Center (TCIRC) that an OIG laptop containing PII had been stolen.

OIG Headquarters was not initially aware, however, that the laptop contained
large databases of SPII collected as part of OIG investigations being conducted by
the Miami office. In order to precisely determine the type of information
contained on the stolen laptop, the SAC began examining a back-up copy of the

9
     Although the OIG agent was instructed to file the report on July 31, 2006, the report was not actually filed until noon
     the next day, August 1, 2006.
10
     Collecting this information from persons who are interviewed in the course of criminal investigations is a standard
     law enforcement practice.
                                                                                6


data stored on the stolen laptop. On August 3, 2006, the SAC advised
Investigations Headquarters management that her preliminary review identified
two investigative databases that contained SPII, consisting of individuals’ names,
addresses, and social security numbers. On August 4, 2006, the SAC reported
additional databases with similar SPII.

On August 5, 2006, the Acting Inspector General was informed that the stolen
laptop contained large databases of SPII. He immediately ordered the Office of
Investigations to remove all such databases from laptop computers and directed an
investigation into the circumstances surrounding the loss of SPII.

The back-up files were then sent to OIG Headquarters where they were analyzed
by computer forensic agents. The initial analysis of the back-up files identified
SPII associated with approximately 133,000 persons, including the following: a
Microsoft Access database containing names, SSNs, and addresses for
42,792 Florida pilots; 3 Microsoft Excel spreadsheets containing names and SSNs
for 80,667 Miami-Dade County area commercial driver’s license (CDL) holders;
names, SSNs, and addresses for 9,005 individuals who obtained personal driver’s
licenses from the Largo, Florida, licensing examining facility near Tampa; and
names, SSNs, and addresses for 491 individuals who obtained CDLs from the
Largo facility.

By letters dated August 9, 2006, the Acting Inspector General notified Members of
Congress, the Governor of Florida, and the public that we had lost control over
SPII belonging to approximately 133,000 persons as a consequence of the theft of
the Doral laptop. On that date, the Acting Inspector General also conducted a
telephone briefing with congressional staff and another with news media
representatives.

Subsequent analysis of the back-up files revealed that 6 more Microsoft Excel
spreadsheets were stored on the stolen Doral laptop, amounting to an additional
4,250 individuals with SPII not previously reported. These spreadsheets contained
Florida airman certificate information used by the OIG’s Miami office in
connection with multi-agency task forces focusing on the use of fraudulent
information to obtain airman certificates. Our forensic examination also found
that the laptop contained databases received from the Department of Justice (DOJ)
containing preliminary investigative lead information pertaining to, among other
things, possible identity fraud by numerous individuals. We provided DOJ with
an accounting of the DOJ-generated databases that were on the stolen laptop.


Re-Examination of the April 2006 Orlando Laptop Theft
After being notified that the Doral laptop contained SPII, the Acting Inspector
General directed that an earlier laptop theft be re-examined. That laptop, which
                                                                                  7


had been assigned to the Miami SAC, was stolen on April 24, 2006, from a hotel
conference room in Orlando, Florida. At the time of the theft, which was 4 weeks
before the Department of Veterans Affairs (VA) incident was publicly reported,
we had treated this matter as a loss of property, rather than a loss of control over
sensitive information.

The Orlando laptop was stolen on the first day of a week-long fraud prevention
conference, which the OIG co-sponsored at a hotel in Orlando. The conference
was organized by the Miami SAC, who had loaded the various PowerPoint
presentations for the conference on her laptop. The laptop was attached to printers
in a hotel conference room to provide logistical support for the conference.

The Miami SAC stated that she closed the room (she believed the door to be
locked but did not recall checking to make sure that it was locked) and left at
approximately 8:30 p.m. When she returned 45 minutes later, the conference
room was open, the laptop was missing, and a hotel employee was servicing the
room. She asked the employee about the laptop, and he stated that it had not been
in the room when he entered. Hotel security was then notified, and they in turn
notified the local police who responded the following day.

At the time of the theft, the Miami SAC’s main concern was that conference
speaker presentations were stored on the laptop. Although the laptop theft was
reported to OIG senior management, OIG management was not informed that the
laptop contained SPII. Consequently, even after the VA incident in May 2006,
when OIG Investigations Headquarters became more aware of SPII issues, the
Orlando laptop continued to be treated as a property theft, and no attempt was
made to determine what information had been stored on the stolen laptop until the
Acting Inspector General’s decision to expand the inquiry following the theft of
the Doral laptop.

Forensic analysis of the Orlando laptop back-up files revealed that it contained
some of the SPII that had been found on the Doral laptop; specifically, information
for approximately 9,005 individuals who obtained their personal driver’s license
information from the Largo, Florida, licensing examining facility near Tampa and
approximately 491 drivers who obtained CDLs from the same Largo facility. It
also contained an additional amount of SPII that was not on the Doral laptop,
which consisted of Microsoft Excel spreadsheets containing the information of
713 individuals related to criminal investigations of designated pilot examiners,
CDL holders, and airport screeners.
                                                                                                                          8


OIG EFFORTS TO PROTECT AFFECTED INDIVIDUALS FROM
IDENTITY THEFT AND TO RECOVER THE STOLEN LAPTOPS
We took several steps to protect the affected individuals and recover the stolen
laptops. We sent letters to those individuals whose SPII we found in our initial
review of the databases contained in the backup of the Doral laptop.
Subsequently, we awarded a contract to a firm that specializes in monitoring credit
records of groups of individuals affected by a data breach to determine whether
the data has been exploited for credit fraud. As of August 21, 2007, that firm has
reported that no organized misuse of the databases had occurred.

Shortly following the Doral laptop theft, we announced a $10,000 reward offer for
information leading to its recovery, placing a notice in local newspapers and
distributing reward posters throughout the area. We also conducted a joint
investigation with the Miami-Dade Police Department and the Federal Bureau of
Investigation (FBI) in an effort to recover the Doral laptop. Although we were not
successful in recovering the laptops, our investigation identified a small ring of
computer thieves who stole laptop computers, reloaded new operating systems and
sold the computers on the used market. One individual was arrested, convicted,
and deported for theft of Government property.


Notification to Persons Who Had SPII on Stolen Laptops
Shortly after we identified 133,000 individuals who had SPII in the databases
stored on the Doral laptop 11 , we began sending letters to those individuals for
whom we could obtain valid addresses. A fact sheet and the letters sent to affected
citizens, available in both English and Spanish versions, were also placed on our
website.

The letters described the incident and recommended actions that affected
individuals could take to protect themselves. Specifically, we suggested that they
contact one of the three major credit reporting bureaus to request that an initial
fraud alert be placed on their credit record and to obtain a free credit report. We
also suggested that they monitor bank and credit card statements and contact
financial institutions to check for any suspicious activity on their accounts.


11
     As previously noted, the Office of Management and Budget circulated a September 19, 2006, memorandum from the
     Identity Task Force that provided guidance for agencies to follow in responding to breaches that could lead to
     identity theft, and we have followed those guidelines since their issuance. The guidelines ask agencies to evaluate
     whether any of the information presents a risk of identity theft. Because the Microsoft Access and Excel databases
     contained names linked to other identifying information and were in readily accessible form, we concluded that they
     presented a risk of identity theft. This was not true for all personal information on the laptop. For example, we
     believe that it is unlikely that anyone would search through the investigative reports on the laptop in order to collect
     a small number of SSNs that special agents collected from interviews.
                                                                                                                    9


We advised these individuals to be careful about phone calls, e-mails, and other
communications from individuals purporting to be Government officials and
“phishing” for or asking to verify personal information. We encouraged those
suspecting that they might be a victim of identity theft as a result of the laptop
thefts to contact our hotline. We also placed this information on our website and
provided it to trade publications aimed at pilots and commercial truck drivers as
most of the affected individuals were in these two groups.

Our hotline received 1,769 telephone calls, 47 e-mails, and 11 letters. 12 We
responded with information and instructions on how to request that the major
credit reporting bureaus place a fraud alert on their accounts. In instances where
individuals believed that they were the potential victim of identity theft, our agents
investigated the particular facts and circumstances. Every individual who
contacted the OIG and requested a telephone or e-mail response received a reply.
We have found no evidence of any suspected identity theft attributable to the
databases stored on the stolen laptops. While some of these individuals had, in
fact, been victims of identity theft, we determined that those incidents were
unrelated to the stolen laptops. 13


Efforts To Protect Affected Individuals From Identity Theft
We engaged ID Analytics, a San Diego, California, firm that the VA employed
following two incidents in which it lost control of SPII. 14 ID Analytics will
monitor the databases stored on the stolen Doral and Orlando laptops for 2 years
for signs that these data are being misused. ID Analytics detects suspicious
patterns in bank and credit account activity to manage identity risk and prevent all
types of credit fraud, from the opening of new bank and credit card accounts to
transaction and collection activity on existing accounts. The firm has developed a
network that gathers information from applications for credit, changes of address,
and other identity risk information from companies; this network includes 5 of the
top 10 banks in the United States, almost all major wireless carriers, and a leading
retail credit card issuer. The firm’s technology is designed to flag misuse of credit
data, identify individuals whose credit has been misused, and determine the
location of the misuse.

According to ID Analytics, the advantages of its method of fraud detection are that
it identifies organized misuse of data, quickly identifies the intended victims,
actively and constantly monitors a file of PII data, and identifies the location of the

12
   As of August 23, 2007.
13
   As of August 23, 2007, we have finished investigating 38 of 39 complaints and thus far have not found any evidence
   of identity theft stemming from the stolen laptops.
14
   The first incident involved the theft of an external hard drive and personal laptop from the home of a VA employee.
   The second incident involved the theft of a computer from a VA contractor.
                                                                                                                       10


suspects so law enforcement officers can apprehend them. It can also help
determine whether the data are being used by more than one criminal suspect and
provides a deterrent effect when it is publicly announced. As stated previously, no
organized misuse of the databases that were stored on the stolen OIG laptops has
been detected as of August 21, 2007 (the date of the firm’s most recent analysis).


Efforts To Recover the Doral Laptop
Shortly following the theft of the Doral laptop, our Office of Investigations began
coordinating with the Miami-Dade Police Department and the FBI to investigate
the theft and recover the laptop. 15 As part of this investigation, we examined the
circumstances of laptop thefts in the area. 16 This resulted in identifying several
vehicle burglaries around the restaurant where the OIG laptop had been stolen,
which bore similarities to that theft. Based on that information, our agents
established surveillance in the vicinity. On September 11, 2006, our agents
observed two men attempting to break into a “bait” vehicle containing a decoy
laptop computer, which we parked near the restaurant. They appeared to use a
tool to punch in the lock keyhole on the front passenger door—the same technique
used to break into the OIG vehicle on July 27. Although this theft attempt was
unsuccessful, our agents were able to identify the two men based on follow-up
investigative work.

On September 19, 2006, our agents observed one of these men breaking into two
vehicles near the restaurant and removing laptop computers. One of the vehicles
was a “bait” vehicle containing a decoy laptop provided by the FBI. The other
was a private vehicle that contained a Hewlett-Packard laptop belonging to a
Miami resident. Investigative activity determined that the decoy laptop thief
passed the laptops to a middleman who took the laptops to the owner of a
computer business in the Miami area. After coordinating with the U.S. Attorney’s
Office in Miami, our agents obtained a Federal search warrant for the computer
business. During the search of this business, agents recovered both the decoy and
Hewlett-Packard laptops.

On September 21, 2006, Miami-Dade Police arrested the individual who stole the
decoy laptop (“decoy thief”). That same day, our agents and police received
consent to search the decoy thief’s apartment and found 10 additional laptop
computers—the Doral laptop was not found in any of the searches. Police
checked the laptop serial numbers against information maintained by the National
Crime Information Center (NCIC) and determined some of them were stolen.

15
     We took the same preliminary investigative steps with respect to the Orlando laptop, but no useful leads were
     developed. This is not surprising given that the investigation did not start until 3 and a half months after the theft.
16
     We also posted a $10,000 reward and distributed numerous posters announcing that fact. Although we received
     numerous tips, none of them led to recovery of the Doral laptop or payment of the reward.
                                                                              11


Subsequent to the arrest, police found a punch tool in the decoy thief’s vehicle.
When interviewed, the decoy thief admitted to using the punch tool to break into
vehicles and to stealing laptops from vehicles near the restaurant. He did not
specifically recall, however, stealing the OIG laptop on July 27.

On October 5, 2006, the decoy thief was indicted by a Federal grand jury. He
pleaded guilty in U.S. District Court on December 4, 2006, to a single felony
charge of theft of Government property (the decoy laptop). He was sentenced to
time served and 3 years of supervised probation. However, because he was a
Colombian national in the United States illegally, he was transferred to the
custody of U.S. Immigration and Customs Enforcement and deported to
Colombia.

Also on September 21, 2006, Miami-Dade police interviewed the computer
business owner. He told the investigators he did not know the laptop computers
were stolen, but later admitted that he suspected they were stolen. He said he
received $25 per laptop to load new operating systems (i.e., Microsoft Windows)
onto the laptops. He specifically admitted to having loaded new operating systems
on the stolen decoy and Hewlett-Packard laptops. He asserted that he did not
attempt to access data on any laptops prior to loading new operating systems.
Reloading a new operating system would dramatically decrease the likelihood that
a subsequent user of the laptop would be aware of or be able to access the SPII
that was stored on it at the time of its theft.

OIG agents interviewed the suspected middleman involved in the theft ring. He
admitted to receiving $75 per laptop from the thief and delivering the laptops to
the computer business owner who loaded new operating systems for $25 per
laptop. He further admitted to having loaded some new operating systems
himself. He maintained that he never tried to access data on any laptops prior to
loading new operating systems. OIG agents and Miami-Dade police detectives
located and interviewed the individual who had been observed breaking into
vehicles with the decoy thief on September 11, 2006. He admitted to stealing
laptop computers from vehicles with the decoy thief.

None of these four individuals recalled stealing or receiving the Doral laptop.
However, one of them commented that, after seeing the OIG reward posters, he
and the other suspects joked that they probably had stolen the OIG laptop and
missed out on the $10,000 reward. During their interviews, two of the suspects
provided additional insight regarding disposal of the stolen laptops. They stated
that older laptops were sold locally, often to high school students, while newer,
high-end laptops were shipped to Columbia. One suspect identified a shipping
company he used. They opined that because the OIG laptop stolen on July 27 was
relatively old, it was likely sold to a local student.
                                                                                                                    12


ASSESSMENT OF RISK THAT SPII WILL RESULT IN IDENTITY
THEFT
In a September 19, 2006, memorandum, the President’s Identity Theft Task Force
provided guidance for agencies to use in assessing how likely it is that a data
security breach will result in identity theft and determining whether affected
individuals should be notified of the risk. 17 Specifically, the Task Force suggested
that agencies consider the following four factors:

     • How easy or difficult it would be for an unauthorized person to access the
       [SPII] in light of the manner in which the [SPII] was protected;
     • The means by which the loss occurred, including whether the incident might
       be the result of a criminal act or is likely to result in criminal activity;
     • The ability of the agency to mitigate the identity theft; and
     • Evidence that the compromised information is actually being used to commit
       identity theft.

As set forth below, the application of these factors suggests that, although there
was information on the laptops that could be used to commit identity theft, it is
unlikely that such theft will occur. Based on our application of this guidance, we
also concluded that it was not necessary to notify the additional individuals who
were listed in databases that were identified during the subsequent, more detailed
forensic analysis. The significant factors that led us to this conclusion were (1) the
likelihood that the thieves reloaded the laptop’s operating system and sold the
computer on the used market, and (2) the periodic analysis of credit risks being
performed under the ID Analytics contract, which will help us to determine if
there was an attempt to exploit this data and would allow us to target the
perpetrators if that took place.


Task Force Factor 1: Accessibility of the Data
Both of the stolen laptops were password-protected with passwords that were
consistent with the standards set by the NIST for systems that store personal

17
     The President’s memorandum did not use the term “SPII” and instead referred to it as “personal information of the
     type that can result in identity theft.” The guidelines can be found on the FTC’s website, www.FTC.gov, by clicking
     on “Fighting Back Against Identity Theft,” clicking on “President’s Identity Theft Task Force,” and clicking on
     “President’s Identity Theft Task Force Summary of Interim Recommendations.” Currently, it can be directly
     accessed at: http://www.ftc.gov/os/2006/09/060916interimrecommend.pdf. As these guidelines were not issued until
     September 19, 2006, we were unable to use them to formulate our initial response. We have, however, followed
     them with respect to decisions made after September 19, 2006. On May 22, 2007, the Office of Management and
     Budget issued a memorandum that required agencies to implement the recommendations of the Task Force with
     respect to “safeguarding and responding to the breach of personally identifiable information” within 120 days. This
     memorandum is available at: http://www.whitehouse.gov/omb/memoranda/fy2007/m07-16.pdf.
                                                                                    13


information. To illustrate, we required that the passwords be at least 8 characters
in length and contain at least one letter, one number, and one special character. 18
The laptops were configured so that the user could not select a password that did
not meet these standards. The laptops were also configured to “time-out” after
30 minutes (i.e., if the computer was not being used for 30 minutes, the user’s
password would have to be re-entered to operate the system). This affords some
protection, in that a password meeting this standard is relatively difficult to defeat.

It is possible, however, to gain access to the computer without defeating the
password. There are easily obtainable programs that allow a Windows password
to be reset. Had the data been encrypted, this would not have posed a serious risk
since use of these programs renders encrypted data unreadable. Unfortunately, as
previously discussed, before the theft, both laptops had been decrypted to allow a
needed upgrade to the OIG’s operating system. Consequently, the SPII stored on
these laptops was more vulnerable to disclosure if the person stealing the laptops
was technically proficient and interested in accessing the data.


Task Force Factor 2: How the Loss Occurred
The circumstances of the thefts suggest that the laptops were stolen for the value
of the computers and not for the value of the data. Regarding this issue, the
President’s Task Force on Identity Theft notes:

       For example, as a general matter, the risk of identity theft is greater if the
       covered information was stolen by a thief who was targeting the data (such as a
       computer hacker) than if the information was inadvertently left unprotected in
       a public location, such as in a briefcase in a hotel lobby. Similarly, in some
       cases of theft, the circumstances might indicate that the data storage device,
       such as a computer left in a car, rather than the information itself, was the
       target of the theft.

The results of our investigation into the Doral, Florida, theft ring confirm that the
laptop was stolen for the value of the computer, rather than for the information
itself. As discussed above, the thieves stated that they would load a new operating
system on the computers and then resell them. This was corroborated by our
subsequent forensic analysis of the Government decoy computer. When that
computer was recovered, we determined that a new operating system had been
installed and that the data had not been accessed.

While loading a new operating system is unlikely to destroy all existing data, it
does make it invisible to someone who is not actively looking for it. A Windows
operating system maintains a list of all files stored on the computer’s hard drive.

18
     Federal Information Processing Standard (FIPS) 112.
                                                                                    14


Running a program such as Windows Explorer will generate a list of the files on
the hard drive. However, when a new operating system is loaded onto the
computer, the existing file list is erased. This essentially hides the existence of old
information from the new user. As new information is stored on the computer’s
hard drive, the old data is eventually overwritten.


Task Force Factor 3: Ability To Mitigate Possible Identity Theft
As noted above, we have contracted with ID Analytics to monitor the SPII
databases on the stolen laptops. ID Analytics analyzes a wide variety of credit
data to determine if there is any organized misuse of the SPII data. If such misuse
occurred, it would provide us with pertinent information regarding the identity of
both the victims and the perpetrators. We would then be in a position to notify the
affected individuals and pursue the perpetrators. Early awareness of identity theft
can significantly reduce the harm suffered by the victims. Further, as an agency
with law enforcement authority and investigative capabilities, we would
immediately coordinate with other law enforcement agencies to apprehend the
persons seeking to misuse the data.


Task Force Factor 4: No Evidence That the Compromised Information
Is Actually Being Used To Commit Identity Theft
While it is possible that persons planning identity theft could intentionally delay
their attempt to exploit the data, it is significant that it has been 1 year since the
Doral laptop was stolen, and there has been no evidence of identify theft based on
these databases. As of August 21, 2007, ID Analytics has concluded, based on
comprehensive expert analysis of credit information relating to the affected
individuals, that there has been no organized misuse of these data.

The reports from ID Analytics are consistent with the information we have
developed in our own investigation. As noted above, the information concerning
the Doral theft was widely distributed through individual letters to most of the
people whose SPII was contained in the laptop’s databases and through a posting
on our website. In these notifications, we advised people to contact us if they
believed they were victims of identity theft. As of August 23, 2007, we have
finished investigating 38 of 39 complaints and thus far have not found any
evidence of identity theft stemming from the stolen laptops.


FACTORS CONTRIBUTING TO THE LOSS OF SPII
Our review of the facts and circumstances surrounding the laptop thefts, indicates
that the loss of SPII was a combination of three factors: (1) the laptops were not
                                                                                                                 15


protected from loss as well as they should have been; (2) the data on the two
laptops had been decrypted to allow needed IT upgrades; and (3) SPII was being
maintained on laptops, which are inherently more vulnerable than computer
servers that operate in a secured environment.


Physical Security of the Laptops
Our examination of the two thefts found that although the OIG agents took some
precautions, they could have done more to safeguard the laptops.

Prior to the two laptop thefts, neither DOT nor the OIG had specific policies for
physically safeguarding laptop computers removed from an employee’s regularly
assigned workplace. As a result, it was left to the judgment of the individual
special agents and their supervisors to determine how best to protect the
equipment and information entrusted to their care. OIG policy required Office of
Investigations employees to safeguard any information in their possession and to
safeguard files from loss, theft, mutilation, and unauthorized disclosure. 19 OIG
policy also directed that laptops should remain “in the possession of the OIG
employee as much as possible.” 20

In the Doral incident, the laptop was stolen from an unoccupied Government
vehicle while the agent was at lunch. While the vehicle was locked, this level of
physical protection was not adequate for several reasons. First, the agent had been
informed that his laptop had been decrypted and warned to protect the computer
while the data was unencrypted. Second, the agent knew that the vehicle did not
have a trunk and was parked in an area of South Florida with a high incidence of
vehicle break-ins and thefts. Although the vehicle windows were tinted, the laptop
was still visible through the back and rear windows. Lastly, the agent was aware
of the widely publicized theft of the VA data and its consequences.

These considerations could have led the agent to properly conclude that his laptop,
which contained SPII databases, should not be left unattended in his vehicle. Even
if the laptop had to be left in the vehicle (i.e., in the event the agent had to quickly
exit and leave the vicinity of the vehicle), it should have been covered to conceal it
from view.

In the case of the stolen Orlando laptop, similar considerations apply. While the
Miami SAC believed that she locked the conference room (she acknowledged that
she did not recall specifically checking to ensure that it was locked), the laptop


19
     Operating Procedures Manual (OPM), Part 4 (JI) Chapter 1, Section 2. Similar guidance exists for Office of Audit
     staff at OPM, Part 2 (JA) Chapter 6: staff is directed to “safeguard working papers developed during an audit to
     ensure that they are not lost stolen or altered.”
20
     OPM Part 1 (General and Administrative), Chapter 19, Paragraph 3(a)(2).
                                                                                                                 16


was unattended for approximately 45 minutes, and the Miami SAC should have
anticipated that hotel staff might access the room and fail to re-secure it.

It also appears that the Miami SAC believed, at the time that her laptop was stolen,
that the laptop contained cases files and that the laptop had been decrypted.21
According to a copy of the police report, which we obtained after the Doral theft,
she told the police officer that her laptop “contained several case files which are
not encrypted due to computer conversions at work.” Believing that the laptop
contained sensitive information and that the information was not encrypted should
have led the SAC not to leave the laptop unattended.


Encryption Capability Disabled at the Time of the Laptop Thefts
Although there was no Office of Management and Budget or DOT requirement to
encrypt laptop data until August 7, 2006, it had been OIG policy since the OIG
began issuing laptops, that users should store all data in a special folder that was
pre-configured to be encrypted. All documents placed in this folder were
automatically encrypted.

If the databases on the laptops had been encrypted at the time of the thefts, there
would have been almost no risk of the data being misused. Unfortunately, we
believe that neither stolen laptop was encrypted at the time of the thefts because of
an IT upgrade that involved creating an active directory, installing new servers,
and upgrading server software. This upgrade was needed because the existing
network was approximately 10 years old and had become obsolete, inefficient, and
more vulnerable to security threats.

Had the files been transferred in an encrypted form from the old operating system
to the new system, the laptop users would have been unable to access these files
after the transfer. Consequently, it was necessary to decrypt all files before their
transfer. The upgrade plan was to decrypt all the computers, upgrade the various
OIG offices in Headquarters and field locations in stages, and then simultaneously
re-encrypt all the computers once all locations had been upgraded. 22 This was
viewed by the OIG CIO staff as the most efficient method to minimize resource
demands and the disruption of day-to-day OIG operations.

Decryption of OIG computers began on March 9, 2006, by running an automated
program on the DOT network. This program automatically decrypted computers
attached to the network unless the user stopped the process before it was

21
     Because we were unable to examine the actual laptop, we were unable to determine conclusively whether the laptop
     had been decrypted.
22
     Had some of the files been encrypted and some unencrypted, it would not have been possible for employees whose
     computer had been upgraded to exchange files with employees whose computer had not been upgraded. The last
     OIG computers, assigned to our Lakewood, Colorado, office, were upgraded on July 27, 2006.
                                                                                                                    17


completed. Thus, most of the OIG’s computers were decrypted in March 2006.
However, computers assigned to the Miami office were not decrypted at that time
because Miami users accessed the OIG computer system through a Virtual Private
Network (VPN). The nature of the VPN connection prevented those laptops from
being decrypted by the automated program, so significantly more effort and end-
user interaction was required to decrypt those laptops. The majority of the Miami
laptops, including the Doral laptop, were decrypted on June 23, 2006, with
assistance from a computer forensic agent who worked in that office. 23

Although the OIG CIO office worked diligently to complete the process as quickly
as possible, given the length of time required to complete the upgrade, we believe
that the OIG’s security certification required a more formal risk assessment with
respect to the decryption of the laptops for such an extended period. At the time
the decryption took place, the OIG Infrastructure Risk Assessment Report
recognized that information stored on laptops is less secure and identified
encryption as the method to address the increased risk. Specifically, the Report
noted that, “access to encrypted files is controlled by user logon and provides extra
protection to ensure the confidentiality and integrity of the data, which may not be
physically secured due to the portability of the systems.”

Under the Federal Information Security Management Act of 2002 (FISMA),
agencies are required to continuously monitor their systems and assess whether
changes to the system or the environment create any new vulnerabilities. 24
Because our Certification and Accreditation specifically identified encryption as a
security measure employed to reduce the risk of storing sensitive information on
laptop computers, the planned decryption of the laptops should have been
identified as creating a security risk, especially given that the information would
remain decrypted for at least several weeks.

The OIG CIO office advised us that it had assessed the risks associated with
decryption. However, that assessment was not recorded in writing or shared with
OIG senior management or investigations management in the field offices. The
OIG CIO office did send an e-mail to the Miami investigations staff and other
Virtual Private Network users in which it described the decryption process and
advised them to “protect your PCs as files will no longer be encrypted.” It did not,
however, offer any specific guidance as to how the laptops should be protected,

23
     Had the Miami SAC’s computer been decrypted at the same time as the rest of her office’s computers, the data
     stored on it would have been encrypted at the time that laptop was stolen. Unfortunately, we have concluded that it
     probably was decrypted when the Miami SAC came to Headquarters on March 22 through 24 to prepare for the
     fraud prevention conference. Because the automated program was running on the OIG computer network, it would
     have decrypted her computer when she physically connected her laptop to the network unless she stopped the
     process. Since we have not recovered the laptop, there is no way to determine whether the program successfully
     decrypted the laptop.
24
     NIST Special Publication 800-53A “Guide for Assessing the Security Controls in Federal Information Systems.”
     Chapter 3.4.
                                                                                                                 18


and those OIG employees who did not have to use a Virtual Private Network
(VPN) to connect to the network did not receive this warning.

A more formal OIG-wide assessment of potential security risks associated with
removing encryption and a discussion of whether compensating security measures
should be employed would have been more consistent with OIG’s information
security certification. Our favorable history with regard to maintaining control
over laptops may have caused the CIO office to underestimate the risk of laptop
theft. Prior to the Orlando theft, we had only lost one laptop. That laptop, which
was lost in 2001, had been assigned to an auditor and was determined not to
contain any sensitive information. Until the Orlando theft, the Office of
Investigations had never lost a laptop. Nevertheless, a formal risk assessment
would have given OIG decision makers the opportunity to decide whether these
risks were acceptable and whether additional steps were needed to mitigate the
risks.

It should also be noted that the OIG CIO has significant responsibilities in addition
to Information Resources Management. The OIG CIO also serves as the Chief
Financial Officer and as the head of Administration, positions that have their own
time-consuming and mission-critical responsibilities. 25 Although we do not
believe that the additional responsibilities contributed to the loss of control over
SPII, given the increasingly complex and fast-paced demands the OIG faces with
respect to effective management of information technology and computer security,
as well as financial management and general administration, consideration should
be given to establishing a separate CIO within OIG whose only responsibilities are
to manage our information technology program, including information resources
and computer security. This would be more consistent with best practices, which
generally call for Information Resources Management to be the primary duty of a
CIO. 26

It is also true that anyone in OIG management who was familiar with the
sensitivity of the type of information stored on special agents’ laptops could have
recognized the increased vulnerabilities presented by decrypting the information
on the laptops and taken steps to mitigate those risks. Persons in the Office of
Investigations who were familiar with the sensitivity of the information stored on
Special Agents’ laptops include the Special Agent in Charge, the Deputy Assistant
Inspector General for Investigations, 27 the Assistant Inspector General for
Investigations, and the Acting Inspector General. Had these individuals been

25
     In 2001, the Deputy Inspector General designated the Chief Financial Officer/Director of Administration, who had
     qualifications and prior experience as an IT professional, as OIG’s CIO.
26
     The Clinger-Cohen Act, 40 U.S.C. 1401(3) requires that larger Federal agencies appoint a CIO with information
     resources management duties as that official’s primary duty. Although not required, it is also considered a best
     practice for smaller agencies and agency components.
27
     Because OIG’s Office of Investigations was subsequently reorganized, this position no longer exists.
                                                                                                                   19


more sensitive to the risks associated with decrypting the laptops used by OIG
special agents, they might have recognized the increased vulnerabilities presented
by the decryption and taken steps to mitigate those risks. 28


SPII Databases Stored on Laptops
At the time of the laptop thefts, the OIG, like most Government agencies, did not
have specific procedures for handling SPII. It fell within the general category of
sensitive information to which OIG employees were expected to apply appropriate
judgment to protect. In the case of special agents, the OIG Operating Procedures
Manual stated, “All JI employees must safeguard files from loss, theft, mutilation,
or unauthorized disclosure.” 29 OIG procedures also called on special agents to
“prevent the accumulation of unnecessary documentation and files.”

Because laptops are inherently more vulnerable to theft than computers that
operate in a secure environment, properly safeguarding files from disclosure
requires making judgments about what kind of information can prudently be
stored on a laptop. Because of the significant damage that can occur from
disclosure of SPII, storing SPII databases on laptops is unwise. Unfortunately, our
special agents and their supervisors did not sufficiently recognize the sensitivity of
the data or the risk associated with keeping this data on laptop computers.


OIG ACTIONS TAKEN TO PREVENT LOSS OF CONTROL OVER
SPII IN THE FUTURE
We determined the factors involved in the loss of control over SPII so that we
could focus our efforts to prevent any future occurrences. Our efforts to
accomplish this have been in four areas: (1) improving physical security of the
laptops, (2) encrypting all data and deploying two-factor authentication, (3) storing
SPII in a more secure fashion, and (4) improving employee awareness to protect
SPII. 30


We Have Improved Laptop Physical Security
Both DOT and the OIG are taking actions to strengthen guidance provided to
employees related to the safeguarding of computers and the information contained
28
     For example, SACs and special agents could have been advised to take additional precautions, such as removing
     SPII from the laptops.
29
     “JI” is the designation used for investigations personnel.
30
     By re-encrypting the data and enacting policies regarding the inventory and oversight of sensitive information, we
     complied with Office of Management and Budget requirements for the protection of sensitive information that took
     effect on August 7, 2006. The May 22, 2006, memorandum from Office of Management and Budget (M-06-15) is
     posted on the Internet at www.whitehouse.gov/omb /memoranda/fy2006/m-06-15.pdf.
                                                                                                                    20


on them. We have issued new policies regarding properly securing unattended
laptops31 and have issued cable locks to all laptop users. These locks prevent the
laptop from being undocked while in the user’s office and provide an effective
way to secure the laptop while on travel.

In addition, we have provided all employees with guidance developed by DOT
regarding the security of portable computers. That guidance includes the
following:

         When carrying portable computers or portable storage devices while on
         travel or when working outside of their normal DOT workspace (e.g.,
         teleworking), employees shall take all reasonable precautions to protect these
         items against loss or theft. Employees shall not leave computer or portable
         storage devices unattended and in the open in their homes, hotel rooms,
         vehicles, places of public transportation, or offices they are visiting. If cable
         locks are available, they should take them while traveling and use them as
         necessary to secure portable computers. 32


We Have Encrypted all Data on the Laptops and Implemented Two-
Factor Authentication on all Laptops
We have significantly strengthened the data security on our laptops. All OIG
laptops now have their entire hard drive encrypted using a system called
“SafeBoot.” This system uses strong pre-boot user authentication and powerful
encryption to prevent unauthorized access.

In addition, all OIG laptops now employ two-factor authentication. In addition to
typing in a password, the user has to insert a small token into the laptop’s USB
port to access data on the laptop. Two-factor authentication significantly reduces
the chances that unauthorized persons could access data on the laptop. Even if
unauthorized persons gained control of the laptop, they would need to both defeat
the password and obtain the token before they could access any of the data on the
laptop.

To further ensure that sensitive information is encrypted, OIG users’ computer is
automatically checked to determine if the encryption process is functioning as
intended whenever they log onto the OIG network. If it is not functioning


31
     As an interim measure, while a new policy was being developed, OIG employees were instructed not to leave
     Government laptops or electronic storage media unattended in vehicles under any circumstances.
32
     This guidance was originally developed by DOT in 2000 but was not widely distributed, and copies were not easily
     obtainable. Following the loss of the Doral laptop, this policy was posted on the DOT Intranet and is referenced in
     the Implementation of DOT’s Protection of Sensitive Personally Identifiable Information (SPII), which was issued
     on October 11, 2006.
                                                                                 21


properly, the OIG CIO office is notified so that corrective action can be taken
immediately.


We Have Begun Storing SPII in a More Secure Fashion
On August 7, 2006, the Acting Inspector General directed that all OIG employees
remove any databases containing SPII from laptops and ensure that all other
sensitive information is stored in encrypted folders. Each OIG employee was
required to certify compliance with this requirement, and OIG managers were
instructed to verify employees’ compliance.

All databases containing SPII were removed from OIG laptops and either deleted
if no longer needed or moved to a secure OIG network server. In addition, all
remaining databases containing SPII were inventoried to enable supervisors to
monitor and keep track of this sensitive information. Sensitive information will be
periodically reviewed and removed when no longer needed.

Because the only computers assigned to most special agents and most other OIG
employees are laptops, each user has been assigned a “home drive” on a network
server that can be used to store sensitive information. This drive is physically
located on a non-portable server that operates in a secure environment but allows
access only to the specific user.


We Have Increased Employee Awareness of the Need To Protect SPII
On August 2, 2006, the OIG CIO circulated to all OIG employees a message from
the DOT CIO reminding all DOT employees and contractors about the importance
of safeguarding SPII. The Acting Inspector General held an all-OIG employee
web cast on August 14, 2006, to reinforce requirements for safeguarding
information on computer hardware and storage media.

In addition, to reinforce awareness of departmental security polices, during August
2006, all OIG employees were directed to re-certify that they had read and
understood departmental guidance on safeguarding information and computer
security. Employees were also required to complete DOT’s on-line Privacy Act
Awareness Training course emphasizing the importance of protecting information
and the proper techniques for handling personal information. OIG employees
completed these actions by August 30, 2006.

In connection with the implementation of the SafeBoot system, all laptop users
were required to review a guide that outlines the use of the locks and stresses the
importance of protecting laptop data. In addition, all laptop users were required to
watch a training video that illustrates the various ways in which laptops can be
                                                                                  22


stolen and highlights the significant damage that an organization can suffer when
it loses control of a laptop computer.


CONCLUSIONS AND RECOMMENDATIONS
The loss of control over the SPII databases had three primary causes:

 • Inadequate protection of laptops by OIG employees;
 • Our removal of encryption from sensitive data during a system upgrade; and
 • Our storage of SPII on laptops, which are inherently less secure than desktops
   or servers that remain in a secure operating environment.

While these causes involved various individuals and circumstances, they were all a
consequence of an insufficient emphasis on protecting sensitive information from
loss. Like many other agencies, our security focused more on safeguarding
physical property rather than information. Given the rise in identity theft and
other misuse of personal information, the variety of information that is collected
by the Government and private parties, and the amount of information that can
now be stored on easily portable devices, this mindset cannot continue.

While it is unlikely that any of the lost SPII will be misused, approximately
138,000 people were exposed to an unacceptably high risk that their personal
information would be improperly disclosed and possibly misused. Given the
severity of the personal and financial disruption that victims of identity theft
suffer, creating this level of risk is unacceptable.

This failure to adapt to the new demands created by changes in information
technology is not limited to our office. Very few Government agencies had
policies relating to the treatment of SPII at the time of the VA theft, and very few
required encryption of sensitive data stored on laptops. Current Office of
Management and Budget policies on this subject were drafted in the wake of the
VA theft, and the requirement that agencies encrypt all sensitive data stored on
mobile computers and other mobile devices did not take effect until August 7,
2006.

It is impossible to completely eliminate the risk that an agency will lose control of
sensitive data. There is, for example, no way to eliminate the possibility that a
trusted employee with access to sensitive data will disregard agency policy and
recklessly or intentionally expose sensitive information to improper disclosure.
Ensuring that these changes do in fact result in increased protection of SPII will
require the continued involvement of OIG senior management. Specifically, OIG
senior management must:
                                                                              23


1.) Evaluate the effectiveness of recent OIG improvements, such as installing the
    SafeBoot encryption software, using two-factor authentication, deploying
    cable locks, and providing each OIG employee with a home drive on the
    network;

2.) Ensure that both new employees and existing employees receive adequate
    privacy awareness training.

3.) Perform periodic reviews of data stored on OIG laptops and document
    compliance with policies regarding the storage of SPII and other sensitive
    data; and

4.) Consider separating the CIO and CFO/Administrative functions, so that one
    senior OIG management official will have information resources
    management as their primary responsibility.



                                      #
